<html>
<title> - EXAMINING THE SYRIAN HUMANITARIAN CRISIS FROM THE GROUND (PART II)</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                 EXAMINING THE SYRIAN HUMANITARIAN CRISIS 
                            FROM THE GROUND (PART II)

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 27, 2015

                               __________

                           Serial No. 114-115

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 __________
                                 
                      U.S. GOVERNMENT PUBLISHING OFFICE
97-332PDF                   WASHINGTON : 2015                      
                     
                     
________________________________________________________________________________________                     
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a5c2d5cae5c6d0d6d1cdc0c9d58bc6cac88b">[email&#160;protected]</a>  
                 
                     
                     
                     
                     COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York<greek-l>
TOM EMMER, MinnesotaUntil 5/18/
    15 deg.
DANIEL DONOVAN, New York<greek-l>As 
    of 5/19/15 deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
DARRELL E. ISSA, California          BRIAN HIGGINS, New York
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
RON DeSANTIS, Florida                ALAN GRAYSON, Florida
MARK MEADOWS, North Carolina         GRACE MENG, New York
TED S. YOHO, Florida                 LOIS FRANKEL, Florida
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Anne C. Richard, Assistant Secretary, Bureau of 
  Population, Refugees, and Migration, U.S. Department of State..     6
The Honorable Leon Rodriguez, Director, U.S. Citizenship and 
  Immigration Services, U.S. Department of Homeland Security.....    13
Mr. Thomas Staal, Senior Deputy Assistant Administrator, Bureau 
  for Democracy, Conflict and Humanitarian Assistance, U.S. 
  Agency for International Development...........................    24

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Anne C. Richard: Prepared statement................     9
The Honorable Leon Rodriguez: Prepared statement.................    15
Mr. Thomas Staal: Prepared statement.............................    26

                                APPENDIX

Hearing notice...................................................    52
Hearing minutes..................................................    53

 
   EXAMINING THE SYRIAN HUMANITARIAN CRISIS FROM THE GROUND (PART II)

                              ----------                              


                       TUESDAY, OCTOBER 27, 2015

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:52 p.m., in 
room 2167, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order.
    After recognizing myself and Mr. Cicilline who will read 
from Mr. Deutch's prepared statement--is that okay with you, 
Mr. Cicilline? Is that good?
    Mr. Cicilline. Yeah. I said my own statement.
    Ms. Ros-Lehtinen. Oh, your own statement. I did not know. 
In his own words. Sorry about that.
    For our opening statements, I will then recognize any other 
member seeking recognition for 1 minute. We will then hear from 
our witnesses.
    Thank you ladies and gentlemen.
    And, without objection, the prepared statements of all of 
our witnesses will be made a part of the record. And members 
may have 5 days to insert statements and questions for the 
record subject to the length and limitation in the rules.
    The chair now recognizes herself for 5 minutes.
    We are in the fifth year of the Syrian humanitarian crisis. 
The United States has contributed over $4.5 billion in both 
direct assistance and through three U.N. crisis appeals with 
nearly 75 percent going through the latter, the crisis appeals, 
yet there seems to be no end in sight in this tunnel. Russia's 
recent intervention is causing serious security concerns for 
not only the people of Syria but the NGOs and the aid workers 
on the ground trying to bring assistance to those in desperate 
need. The front lines are shifting, and the battle lines are 
fluid, causing uncertainty and making it increasingly dangerous 
to deliver aid to certain areas and making it increasingly 
dangerous for Syrians who remain in their homeland.
    The situation has gotten so bad that we are now seeing 
Europe struggle to deal with its greatest migration and refugee 
crisis since World War II, as many fleeing the Syrian conflict 
are trying to make their way into Europe. But while the 
European crisis may be grabbing the headlines at the moment, 
let's remember that this crisis was not created yesterday. For 
years the people of Syria have been impacted and the Syrian 
refugee crisis has also impacted countries like Jordan, like 
Lebanon, Turkey and Egypt. And yet many in the international 
community ignored these countries' pleas for assistance. These 
countries are more vulnerable because they have less capacity 
and less resources to deal with the crisis.
    Let's take Jordan, for example. About of 630 Syrians have 
been registered by UNHCR, plus hundreds of thousands more that 
have already assimilated in Jordan, all of which places an 
incredible burden on the kingdom to provide basic services to 
over 1 million new people.
    But with more and more refugees seeking to reach Europe 
from Syria and its neighbors, there will, of course, be those 
seeking to take advantage. We are now seeing smuggling networks 
popping up in Turkey, Lebanon, Libya, and elsewhere, turning 
trafficking in Syrian refugees into a billion-dollar industry 
and also creating security concerns, as we have no way of 
knowing who is being smuggled into Europe and elsewhere. And 
with President Obama's announcement that the U.S. will take in 
10,000 Syrians, this also raises concerns for many in the U.S., 
especially in light of the FBI Director's testimony to Congress 
last week that the U.S. may not be able to properly vet all of 
those seeking to come to our Nation.
    As a legislative body, this is something that we must take 
seriously. If we cannot guarantee the proper vetting of these 
refugees, it would be irresponsible for us to promote it. We 
must protect our country first and ensure that all security 
measures are in place to properly screen these individuals 
before they come into the United States. We cannot compromise 
the well-being of the American people or our National security.
    Unfortunately, it has taken Europe's worst migration crisis 
to awaken the Europeans now that the Syrian conflict is 
knocking on their borders.
    The United States has been the largest single contributor 
to the Syrian humanitarian crisis response, dwarfing the 
contributions made by any other nation and by the European 
nations as a whole. There is no way to tell how things may have 
turned out differently had other nations stepped up to the call 
like the United States did.
    Earlier this month, committee staffers traveled to Geneva 
to meet with many of the organizations that receive our 
assistance for the Syrian humanitarian crisis. From their trip, 
one thing was clear: The response to the crisis has been 
dreadfully underfunded with a nearly two-thirds funding gap.
    Of course, the problems we need to address are many and 
they are difficult. And it is true that there can never be a 
solution to the refugee crisis until the underlying root causes 
are addressed. And that means finding an end to the fighting, 
an end to the terror, and the removal of Assad from power. But 
we need to be less reactive and start being more proactive. We 
need to start thinking of ways not just to address the refugees 
most immediate needs, but the needs that they face in the years 
to come. And we can't do it alone. We need to press our 
European friends and our partners in the Middle East and Africa 
to step up and do more.
    We need to do a lot more to ensure that the needs of the 
host communities in Syria's neighbors are being met as well 
because this has taken a very big toll on their resources, and 
it is leading to increased tension between the communities. 
There is a pervasive feeling of hopelessness and despair that 
will have a long-term impact on the region and beyond.
    Syrians for the most part want to eventually return home. 
According to some NGO implementing partners on the ground that 
have conducted surveys on this, some 90 percent of Syrian 
refugees reportedly state that they do have a desire to return 
home. But that desire may fade if the international community 
does not step up and do more to ensure that there is a safe 
home for them to return to and to demonstrate that we are 
working toward a better future for those who have been impacted 
so severely by the Syrian conflict.
    And, with that, I am pleased to yield to the ranking member 
of our subcommittee, Mr. Deutch.
    Mr. Deutch. Thank you, Madam Chairman.
    Madam Chairman, I was anticipating having a conflict with 
today's hearing. Mr. Cicilline had agreed to step in, and I am 
proud to yield my time to Mr. Cicilline. He has been a leader 
on the issue of refugees. He organized the first Member letter 
requesting that the refugee cap be lifted in the wake of the 
migration crisis in Europe. And I am proud to yield to him.
    Mr. Cicilline. Thank you, Madam Chairman and Ranking Member 
Deutch, for calling this hearing today, and for your leadership 
on these issues.
    And thank you, Ranking Member Deutch, for yielding to me.
    As we have discussed at the first part of this hearing 
earlier this month, the crisis inside Syria and in the region 
is escalating and has led to the largest movement of refugees 
through Europe and the Middle East since World War II.
    As of September, an estimated 12.2 million people inside 
Syria, more than half the population, are in need of 
humanitarian assistance. Of these, more than 7.6 million are 
displaced inside the country. In addition, more than 4.1 
million Syrians have registered as refugees abroad, with most 
fleeing to countries in the immediate surrounding region, 
including Turkey, Lebanon, Jordan, Iraq, Egypt, and other parts 
of North Africa.
    As we have seen in recent months, as those neighboring 
countries reach maximum capacity, more refugees are risking 
dangerous journeys across land and sea into Europe. The United 
Nations has declared the situation in Syria a level three 
emergency in order to help facilitate mobilization of resources 
for the humanitarian response. But the distribution of relief 
supplies within the country remains dependent on guarantees 
from all parties to the conflict of safe and unhindered access 
of humanitarian staff.
    The International Committee of the Red Cross estimates that 
5 million people within Syria are located in places that they 
categorize as difficult to reach by relief workers.
    I am extremely concerned about how the new Russian bombing 
campaign is contributing to violence in Syrian, with reports 
that tens of thousands of people have been displaced in the 
past few weeks. Syrian human rights organizations have 
documented cases of Russian strikes on hospitals and medical 
facilities. And a Human Rights Watch report said that Russian 
strikes killed 59 civilians on October 15.
    With this renewed fighting, pressure on Syria's neighboring 
countries, and by extension Europe, will only increase. As the 
weather turns colder, the situation for refugees on the move 
will only get more perilous. Many host communities are 
overwhelmed. Overcrowded schools, inadequate hospital services, 
impacts on resources, such as water: All contribute to the 
burden of neighboring countries.
    The United States is the largest donor of humanitarian 
assistance to Syria and the region. From Fiscal Year 2012 
through September 21, 2015, the United States has allocated 
more than $4.5 billion to meet Syrian humanitarian needs. This 
funding includes over $1.5 billion to NGOs, the International 
Federation of Red Cross and Red Crescent, and other 
international organizations, as well as nearly $3 billion to 
U.N. agencies responding to the needs of conflict-affected 
populations in Syria and the region.
    Yet according to UNHCR, chronic funding shortages are 
greatly limiting aid programs for refugees and host communities 
in the region. Since 2011, the U.N. appeals have remained 
significantly underfunded and recently resulted in cuts to food 
aid and cash assistance. Lack of assistance is reportedly 
leading to an increase in negative coping strategies, such as 
begging, child labor, survival sex, and increased debt. The 
world can and must do better. It is imperative that when we 
talk to our allies, particularly in the Gulf countries, that we 
emphasize the necessity of meeting the humanitarian needs of 
these refugees.
    Moreover, while the United States has been the leader in 
terms of financial response to this crisis, we have fallen 
short in absorbing refugees. Jordan has absorbed \1/2\ million, 
Lebanon 1 million, and Turkey 2 million. But since 2011, the 
United States has taken in roughly 1,500 Syrian refugees. Most 
of those in the past year. This is simply not acceptable.
    Last month, as Ranking Member Deutch mentioned, I led a 
letter signed by 70 of my colleagues asking the administration 
to raise that number to 100,000 Syrian refugees by the end of 
2017. There is precedent for this. The United States welcomed 
approximately 200,000 refugees during the Balkan wars, 700,000 
refugees from Cuba, and more than 700,000 refugees from 
Vietnam. While I was pleased that the administration raised the 
refugee quota for 2016 to accommodated 10,000 refugees from 
Syria, I fear that isn't nearly enough to make an impact.
    Of course, the ultimate accountability for the violence and 
chaos on Syrian and Iraq falls upon the Syrian regime of Bashar 
al-Assad, whose unspeakable cruelty toward his own people, 
including the use of chemical weapons, is at the heart of this 
civil war, as well as upon ISIS. The only way to fully ease the 
suffering of the Syrian and Iraqi people is to defeat ISIS and 
bring an end to the civil war in Syria. There is certainly no 
easy fix for this problem, but I hope that our witnesses today 
can tell us what steps the administration is taking to bring 
about a solution to this terrible tragedy and what more we can 
do.
    I thank the witnesses again for being here. And thank you 
for the testimony you are about to provide.
    And I yield back.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Cicilline.
    Would you like to add anything, Mr. Deutch, or are you 
waiving----
    Mr. Deutch. I will waive.
    Ms. Ros-Lehtinen. You will waive. Thank you.
    Mr. Trott is recognized.
    Mr. Trott. I would like to start by thanking Chairwoman 
Ros-Lehtinen and Ranking Member Deutch for holding this 
important hearing.
    As the situation in Syria becomes progressively worse, the 
need to deliver aid to affected people in a timely and 
efficient manner becomes even more important. We have learned 
throughout history that unfortunately religious minorities are 
disproportionately affected during dire humanitarian crises. I 
am proud to represent a vibrant district with various religious 
minorities from the Middle East. And one of the most common 
complaints I hear from them is that aid is not getting to them 
quickly enough.
    In April, I wrote a bipartisan letter to USAID with my 
colleagues in the Michigan delegation asking USAID to consider 
removing bureaucratic red tape to help these battered 
communities. Six months later, my letter remains unanswered.
    While I understand that USAID is under pressure to ensure 
that every vulnerable citizen is taken care of, if our aid is 
not getting to these communities at the right time, our efforts 
are futile and the crisis only becomes worse.
    To better coordinate the various humanitarian relief 
efforts ongoing in the region, I introduced legislation that 
would require the interested parties to better coordinate with 
one another to ensure timely relief to these endangered 
citizens. After spending 30 years in business, I know that the 
key to success of any project is cooperation and communication, 
not more red tape, obstacles, and excuses.
    I yield back the balance of my time.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Trott.
    Mr. Boyle is recognized.
    Mr. Boyle. Thank you. And I would just briefly say that we 
faced a real turning point in late August ever since the 
shocking and horrific sight of a small boy's body being washed 
ashore on a beach in Turkey. That really, I think, awoken the 
consciousness of and the consciences of many people. I was in 
Europe at that time as part of an international conference, and 
it clearly changed the dynamic in many Western European 
countries that had not been stepping up to the plate to do 
their part.
    I would say that besides the humanitarian assistance--and I 
pre-read some of the testimony, and I know that we have had a 
three-prong approach--clearly our humanitarian assistance has 
led the world. We are number one in that regard, and we should 
be quite proud of it. I think the question that I am searching 
for an answer--that I really want answered and cannot at this 
point is, are we going to continue to do a series of one-offs, 
or will there actually be a worldwide collaborative effort to 
solve this problem?
    So in the hearing today and many of the questions that are 
asked and answered, I hope we could spend a moment, take a look 
at the United States, not in isolation but ourselves as part of 
a larger global solution.
    Thank you.
    Ms. Ros-Lehtinen. Very good, sir.
    Do any other members wish to be recognized?
    If not, I would like to introduce our witnesses who are 
three very good friends of our subcommittee.
    First, we are pleased to welcome back the Honorable Anne C. 
Richard, who serves as Assistant Secretary of the Bureau of 
Population, Refugees, and Migration for the Department of 
State. She has served as the vice president of government 
relations and advocacy of the International Rescue Committee 
and was a nonresident fellow for the Center for Transatlantic 
Relations at Johns Hopkins University's School of Advanced 
International Studies.
    Welcome back, ma'am.
    And, second, we are pleased to say hello to the Honorable 
Leon Rodriguez, who is the Director of the United States 
Citizenship and Immigration Service. Previously, Mr. Rodriguez 
served as the Director of the Office for Civil Rights at the 
Department of Health and Human Services and, before that, 
served in the United States Attorney's Office for the Western 
District of Pennsylvania and was a trial attorney in the Civil 
Division of the Department of Justice.
    Welcome, Mr. Rodriguez.
    And now we also welcome back a good friend, Senior Deputy 
Assistant Administrator Thomas Staal of the Bureau of 
Democracy, Conflict, and Humanitarian Assistance at USAID. He 
has served in USAID since the late 1980s and has served as a 
Director of the Iraq Reconstruction Office. And Mr. Staal also 
served as the mission director in Lebanon, Ethiopia, and Iraq.
    And you don't have to be a good friend of the subcommittee 
to be a witness, but we just get good witnesses, and we welcome 
you back. So thank you.
    Ms. Richard, we will start with you.
    Ms. Richard. Thank you, Madam Chairman.
    Ms. Ros-Lehtinen. Closer to your mouth.

     STATEMENT OF THE HONORABLE ANNE C. RICHARD, ASSISTANT 
SECRETARY, BUREAU OF POPULATION, REFUGEES, AND MIGRATION, U.S. 
                      DEPARTMENT OF STATE

    Ms. Richard. Oh. I can bring this to me.
    Thank you, Madam Chairman, Ranking Member Deutch, 
distinguished members of the committee, thank you for the 
opportunity to appear before the House Committee on Foreign 
Affairs to discuss the Syrian humanitarian crisis.
    I returned recently from a series of meetings overseas, 
including my fifth visit to Turkey and my eighth visit to 
Jordan during my tenure as Assistant Secretary. I greatly 
appreciate the interest of this committee on this very 
challenging situation.
    I would like to briefly outline the steps taken by the 
Population, Refugees, and Migration Bureau and others at the 
State Department, USAID, and in the Obama administration to 
provide humanitarian assistance to innocent civilians and to 
assist the governments of other countries to deal with the 
crisis in Syria.
    As you know, in early September, and as Congressman Boyle 
just mentioned, the tragic photo of a little boy's body on a 
beach in Turkey awakened people to the plight of Syrian 
refugees in ways that years of grim statistics, bleak images, 
and climbing casualty figures could not. What started as unrest 
in Syria in 2011 has developed into a multifront war and 
spilled over to become a regional crisis. Recently, the crisis 
reached Europe as hundreds of thousands of young men, women and 
sometimes entire families seek to reach that continent bu boat, 
bus, train, and foot. They are joined by refugees and migrants 
from other countries, chiefly Afghanistan, Eritrea, and Iraq. 
While the outflow of refugees to Europe has garnered a lot of 
attention, it is important for us to remember and acknowledge 
that the vast majority of Syrian families remain in the Middle 
East. And you just heard the figures in the opening statements 
of the chair and ranking member that there are more than 4 
million refugees in the surrounding countries and roughly 7 
million Syrians are displaced within their own country.
    For more than 4 years, the Obama administration has helped 
these countries neighboring Syria and the innocent people 
caught up in the Syria crisis even as we continue to play a 
leading role in providing humanitarian aid to people affected 
by conflicts in many other places. We have a three-pronged 
approach to the humanitarian aspects of the crisis in Syria and 
the region: Strong levels of humanitarian assistance, active 
diplomacy, and expanded refugee resettlement.
    First, the U.S. Government is the leading donor of 
humanitarian assistance to people in need inside Syria, in the 
surrounding countries, and to others caught up in crises around 
the world. Through contributions to international 
organizations, such as the U.N. High Commissioner for Refugees, 
the International Committee of the Red Cross, the International 
Organization for Migration, the World Food Programme, UNICEF, 
and leading nongovernmental organizations, U.S. funds are being 
used to save millions of lives. U.S. humanitarian assistance 
and response to the Syrian conflict, as you have said, totals 
more than $4.5 billion since the start of the crisis and is 
made possible thanks to strong bipartisan support from 
Congress. Without U.S. support, more people would be making the 
dangerous voyage further north.
    Even with our sizeable contributions, however, U.N. appeals 
for humanitarian aid to address the crisis in Syria remain 
underfunded. With only 45 percent of the needs covered as of 
October 2015, these shortfalls have had real consequences. Cuts 
to food and other assistance was one of the triggers of the 
current migration of people to Europe. Syrian refugees in 
Jordan, Turkey, and Lebanon are losing hope of ever returning 
to their homes. They are unable to work regularly to sustain 
their families. Rents are high. And their children are missing 
out on school. Roughly 85 percent of refugees now live outside 
of camps. And that is something that is not well understood or 
known. We need to help refugees become self-sufficient while we 
also support the communities that host them. We are looking at 
ways to better link our relief and development assistance. And, 
importantly, we are working to get more refugee children in 
school throughout the region.
    The second prong of our response is diplomacy on 
humanitarian issues. For several years, we have engaged 
government officials in the region to encourage them to keep 
borders open and allow refugees to enter their countries; 
authorize the work of leading humanitarian organizations; and 
allow refugees to pursue normal lives, or as normal a life as 
possible. Diplomacy on humanitarian issues means working 
constructively with other nations to find solutions. The issue 
of the refugee and migration crisis was taken up again and 
again in recent international fora. And in my testimony, I talk 
about the places that I have traveled recently and the meetings 
I have had pursuing our so-called humanitarian diplomacy.
    Diplomacy also includes pushing when needed those who can 
and should be doing more. We are engaged on encouraging 
countries that provide assistance outside the U.N. system to 
contribute to the U.N. appeals for Syria. Contributions to U.N. 
appeals can help prevent duplication and ensure that assistance 
is provided to those who need it the most. And we are also 
encouraging countries to promote refugees to pursue jobs and 
livelihoods.
    The third prong of our response is resettling refugees in 
the United States. As you know, for the past 3 years, we have 
brought 70,000 refugees from all around the world to the United 
States. And for this year, the President has determined we 
should bring 85,000 including at least 10,000 Syrians. We 
recognize that admitting more Syrian refugees to the United 
States is only part of the solution, but it is in keeping with 
our American tradition. It shows the world that we seek to 
provide refuge for those most in need. It sets an example for 
others to follow. And it adds to diversity and strength of 
American society.
    I have been up on the Hill a couple times recently and have 
gotten a lot of questions about the process that we use to 
bring refugees here. They are referred by the UNHCR. We work 
very carefully to have them tell their stories. No one comes 
who hasn't been approved by the Department of Homeland 
Security. And Leon Rodriguez and I are here to answer any 
questions you have about the resettlement process, but it 
generally lasts 18 to 24 months. And we take very seriously the 
need to secure our borders as part of that program.
    In conclusion, the vast majority of refugees of the 3 
million who have been admitted to the United States, including 
from some of the most troubled regions in the world, have 
proven to be hard working and productive residents. They pay 
taxes; send their children to school; and after 5 years, may 
take the test to become citizens.
    So I am happy the answer any questions you may have about 
this three-pronged approach and to provide details about our 
program.
    [The prepared statement of Ms. Richard follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                  ----------                              

    Ms. Ros-Lehtinen. Thank you very much, Secretary Richard.
    Mr. Rodriguez.

   STATEMENT OF THE HONORABLE LEON RODRIGUEZ, DIRECTOR, U.S. 
   CITIZENSHIP AND IMMIGRATION SERVICES, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Rodriguez. Madam Chairwoman, Ranking Member Deutch, 
distinguished members of the committee, thank you all for 
convening this very important hearing.
    When I first became Director of USCIS, in fact during the 
confirmation process, I knew that the work of operating the 
refugee admission process, particularly with respect to 
refugees from various parts of the Middle East, but chief among 
them Syria, was going to be one of my priorities and one of the 
most important parts of the work that we do at USCIS. The 
statistics recited by Congressman Cicilline tell a very grim 
story of what is going on in Syria today.
    More than half of the population of Syria is displaced. 
Four million people are now essentially in exile somewhere in 
the Middle East, be it Jordan, be it Turkey, be it Lebanon, be 
it Egypt. But the individual stories that we hear are probably 
the most compelling of all. Recently one of my refugee officers 
shared with me a story of an individual who was screened. And 
during the screening process, we learned that he was with his 
elderly mother during a time when his town was being bombed by 
the Syrian Air Force. His mother, because of the stress of the 
bombing, had a heart attack. She ultimately died in his arms, 
but not after hours actually of this young man attempting to 
resuscitate his mother through CPR and having no access to 
medical care because of the horrendous conditions in that town. 
And this is one of legions of stories that we have heard at 
USCIS from the individuals that we have screened.
    I took the opportunity this past June to travel to Turkey 
where in Istanbul, we have a resettlement support center where 
my officers work with a State Department contractor to screen 
refugees. And I observed both the screenings, and I observed 
them, incidentally, with the particular eye that I bring as a 
former criminal prosecutor who has myself conducted thousands 
of interviews, many of them confrontational interviews. Many of 
them interviews with individuals who I knew were lying to me. 
So I observed those screenings as they took place.
    But I also had the opportunity to sit down with the 
families that were in that resettlement support center. And 
what was amazing to me is how recognizable those individuals 
were to me, how familiar they were to me. They were individuals 
from all walks of life, but they were individuals who really 
want the same thing that any of us here want, is to get out of 
harm's way and to find a better life for their family.
    I had the opportunity to spend a few minutes with the 
children at the resettlement center, to witness their 
excitement about their potential new life in America, to hear 
what they had already learned about our country and their 
excitement about coming here. So, amidst that challenge, the 
men and women who work in a refugee admissions program do their 
job. And that essentially involves their doing two things. One, 
making sure that the individuals who ask for refuge in the 
United States satisfy the legal requirements in order to obtain 
that refuge. But, two, and importantly as the chairwoman noted, 
ensuring that none of those individuals who are seeking refuge 
in the United States are people who mean us harm.
    Now, how do we do that? Part of that is done through a 
suite of biographic and biometric checks. And I am hoping 
during the course of the hearing to be able to explain in some 
detail as to how those work. But the key is we actually have 
screened out individuals who we identified through that process 
as being potential threats. So the process has actually worked.
    But, two, as importantly, the refugee officers in our 
agency are among the most highly trained professionals in the 
Federal Government. And they are specifically trained in 
country conditions to conduct interviews to screen out 
individuals who may do us harm. That process has also resulted 
in a number of people being placed ``on hold,'' not permitted 
to travel to the United States until security concerns can be 
resolved.
    I would like to conclude by dedicating my testimony here 
today to my maternal grandfather, John Policar, who I actually 
never had the opportunity to meet. My grandfather was one of 
the leaders of the Jewish community in Cuba in the late 1930s 
and 1940s. And among his activities as a leader of that 
community was to attempt to assist refugees from Nazi Europe, 
who some of whom had sought refuge here in the United States 
and were denied that refuge--many of us have heard the story of 
the St. Louis--and who then traveled to Cuba, some of whom were 
able to find refuge there but some of whom were not.
    I intend, as director of USCIS, to honor his legacy. First 
and foremost, by making sure that we don't admit people who do 
us harm to the United States. But, secondly, by making sure 
that we honor our tradition of offering refuge to those who so 
desperately need it.
    Thank you, Madam Chairwoman, and I look forward to 
answering the committee's questions.
    [The prepared statement of Mr. Rodriguez follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               ----------                              

    Ms. Ros-Lehtinen. Thank you very much, Mr. Rodriguez. 
Excellent testimony.
    Mr. Staal.

    STATEMENT OF MR. THOMAS STAAL, SENIOR DEPUTY ASSISTANT 
ADMINISTRATOR, BUREAU FOR DEMOCRACY, CONFLICT AND HUMANITARIAN 
     ASSISTANCE, U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

    Mr. Staal. Madam Chairman, Ranking Member Deutch, and 
members of the subcommittee, thank you for your support and the 
attention today to this Syrian crisis, which grows, as we have 
heard, more complex every day.
    For almost 5 years, the Assad regime has waged an 
unrelenting campaign of bloodshed that has decimated 
communities and allowed extremists to thrive. And while the 
world's attention is centered appropriately on the perilous 
journey of Syrians forced to flee their homeland, the refugees, 
as we have heard, are part of a much larger community that 
suffers under the weight of this crisis.
    Over 17 million Syrians, 70 percent of the country's pre-
war population, are affected by this conflict, with the 
majority facing daily attacks inside Syria. Indeed, half of all 
Syrians are either dead or displaced from their homes.
    While more than 4 million of them have gone to neighboring 
countries, another 6.5 million to 7 million are displaced 
inside Syria.
    And behind these massive numbers, the children, just like 
our own, and parents, like any parent, would do anything and 
risk everything to keep their families safe. Families inside 
Syria face the painful ultimatum: If you stay, your child could 
be killed on the way to get bread. If you leave, you risk their 
safety on a dangerous journey across borders. And we are doing 
everything possible in USAID to alleviate the suffering for 
families inside Syrian as well as those fleeing to the 
neighboring countries.
    The U.S. Government has been, as you have heard, the single 
largest donor to the Syrian crisis. And our partners fearlessly 
cross conflict lines amidst daily barrel bombs and shifting 
conflict lines to reach people in the regime in opposition and 
even in ISIL-held areas. Today they face an added layer of 
threat, Russian aggression on Syrian soil.
    Several partners report that Russian air strikes are 
driving new displacement and complicating access. One heroic 
partner told us he feels like every time he goes to the 
hospital that he manages, it is only a matter of time until it 
will explode. His hospital has been bombed, by the way, over 18 
times by the Syrian regime and recently by the Russians.
    Despite ongoing access and security challenges, we are 
reaching approximately 5 million people inside Syria and 
another 1.5 million in the region every month with our 
humanitarian assistance. And this aid is saving lives and 
reducing suffering every day.
    USAID supports inside Syria 140 health facilities, and in 
Fiscal Year 2015 alone, it reached over 2.4 million people with 
health assistance. And we have provided access to clean water 
for 1.3 million people. We are the largest donor of food 
assistance, providing 1.5 billion to date. We provide flour, 
even, to bakeries inside Syria and support food vouchers for 
Syrian refugees that have injected over $1.2 billion into the 
economies of the Syrian neighbors.
    And separate from our humanitarian efforts, we help 
moderate civilian organizations in Syria to essential services, 
providing a lifeline to communities under siege.
    And then also our development assistance helps Syria's 
neighbors, who are strained more than ever to build more 
resilient public services to cope with the influx of the 
refugees.
    With 2 million Syrian children out of school, we are 
working to ensure that this entire generation is not lost to 
this crisis. In Jordan and Lebanon, we are expanding public 
schools, supporting remedial programs, training teachers so 
that Syrian refugees can thrive alongside their host community 
peers. We have upgraded water systems and hospitals to help the 
communities in Jordan and Lebanon cope with the increased 
demand. In Lebanon, we are working with young people to 
decrease tension between host communities and refugees and help 
them find constructive solutions to common ends.
    And these efforts, by the way, are possible thanks to the 
generous support from Congress.
    Nevertheless, we struggle to meet the escalating needs with 
stretched dollars. We are working closely with other donors to 
mobilize resources because we cannot meet the needs alone. 
Certainly no amount of humanitarian assistance will stop the 
suffering or stem the tide of refugees, which is why a 
negotiated political solution is urgently needed. In the 
meantime, we are committed to saving lives, alleviating 
suffering, and helping Syria's neighbors to cope with the 
largest humanitarian crisis we have ever faced.
    Thank you for your support. And I look forward to your 
questions.
    [The prepared statement of Mr. Staal follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                  ----------                              

    Ms. Ros-Lehtinen. Thank you very much to our Government 
agencies for the great work that you are doing under difficult 
circumstances.
    I would like to yield my time to Mr. Chabot of Ohio.
    Mr. Chabot. I thank the chair lady for yielding.
    I will begin with you, Mr. Rodriguez. During a recent 
hearing before the House Committee on Homeland Security, FBI 
Director James Comey stated that government background checks 
on refugees is limited to only that information which has been 
previously collected and stored in its database. Given that 
ISIS has threatened to exploit the current Syrian humanitarian 
crisis, what is being done to increase scrutiny and the 
thoroughness of security checks on those seeking refugee status 
in the United States?
    Mr. Rodriguez. Thank you, Congressman, for that very 
critical question.
    We, working together with the State Department, conduct a 
suite of biographic and biometric checks of individuals who are 
applying for admission. The biographic checks, in fact, occur 
before my officers interview the individual seeking 
admission.One among the sources of the biographic checks are 
something called the interagency check, which is hosted by the 
National Counterterrorism Center. That database is populated 
from information from all kinds of law enforcement and 
intelligence sources, and there is a constant and ongoing 
effort to feed that database. It is true, as it has often been 
true in other places, that we do not currently have any 
meaningful United States presence inside Syria. Nevertheless, 
we do have, as we always have had, ability to gather 
intelligence information, gather law enforcement information, 
using a number of techniques and doing so in a number of 
places. And as a result of that process, our officers in 30 
cases were able to identify individuals who, in fact, based on 
their showing up in the databases that I just described, denied 
those individuals admission.
    Once we interview individuals, we also take fingerprints. 
We run those fingerprints against Department of Defense 
databases, United States law enforcement databases, including 
both the FBI and also our own Customs and Border Patrol, in 
those events where some individuals have encountered, really, 
United States either military or law enforcement authorities at 
some point along the way.
    But very critically, Congressman, is the interview process. 
I started my career as a street prosecutor in New York City. 
And we have all the technology in the world. We could run 
fingerprints. We could conduct chemical analysis. But at the 
end of the day, criminal cases were made by New York City 
Police detectives. The work that we do, Congressman, I would 
suggest is similar. At the end of the day, the judgments that 
we make are the judgments of the men and women, the highly 
trained and highly prepared men and women, that work in our 
refugee admission process. They are trained and briefed at a 
great level of depth in country conditions within Syria. In 
fact, the interviews that we conduct further populate our 
understanding about those country conditions, and they use that 
knowledge, that information, to then test the information that 
is being given to them by the individuals applying for 
admission. As a result of that training, hundreds of 
individuals have either been placed on hold or denied admission 
all together because that process of interviewing has 
identified problems with the account being given by those 
individuals. So we are going to continue to polish that 
process. We are going to be continuing to work to further 
access different sources of intelligence so that we can test 
individual stories against that information.
    Mr. Chabot. Thank you. I would like to get one more 
question in, and I just have a minute left.
    So, either Ms. Richard or Mr. Staal, whichever one of you 
wants to handle it, why has the administration opted to channel 
aid for the humanitarian crisis through the United Nations 
rather than through direct aid or NGOs? Would it not be more 
efficient and cost-effective to work directly with partners on 
the ground? So either one of you that would like to take that 
is----
    Ms. Richard. I can start. We do both. We channel aid 
through the best U.N. operational agencies, humanitarian 
agencies. And we also work with the top nongovernmental 
organizations. And we try to use all channels to get aid inside 
Syria, which Thomas is the expert on, and our sense is that 
because the U.N. plays a coordinating role and reviews the 
requests from a whole span of agencies and puts together these, 
appeals, it actually reduces duplication and makes sure that 
professionals who know what they are doing are responding with 
the aid. Now, of course, at the same time, most aid workers are 
from the countries in which they are working. So, inside Syria, 
it is mostly Syrians. In Jordan, it is Jordanians, et cetera. 
But at the top, there are people who are quite seasoned who are 
involved in this.
    Tom, do you want to add anything?
    Mr. Staal. Yes. Thank you. I mean, it is an excellent 
question. And what we try to do is make sure we are using the 
most effective means and the organizations that can do the job 
the best in a given area. And sometimes it can vary between 
different parts of the country. Frankly, in the regime-held 
areas within Syria, the U.N. agencies are able to operate most 
effectively and most broadly into, you know, the far reaches of 
the area.
    In the nonregime areas, we do work also somewhat with the 
U.N., but there we work more with international NGOs. Now, they 
in turn work through local organizations, and that is a 
critical aspect that you mentioned. It is difficult for us to 
work directly with local organizations just through the 
financial systems and oversight. But through our international 
NGO partners, they are able to work with local organizations. 
Indeed, that is how they get there, including with like local 
councils and civil society organizations that really know the 
situation on the ground, have the best access.
    We actually have better reporting and oversight of our 
programs and our assistance than in many other countries. So 
even the GAO and our IG shows that our aid is getting to the 
right people. And then the nice thing about working with local 
councils is that you are building some local capacity so that, 
hopefully, when the regime--excuse me. When the crisis is over, 
you have got some local capacity to build up again.
    Mr. Chabot. Thank you very much. My time is expired.
    Thank you very much, Madam Chair.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Chabot.
    Mr. Deutch is recognized.
    Mr. Deutch. Thank you, Madam Chairman. I am going to yield 
to Mr. Cicilline.
    Ms. Ros-Lehtinen. Mr. Cicilline.
    Mr. Cicilline. Thank the gentleman for yielding.
    Under Secretary Richard, if I could begin with you, can you 
explain--I recognize this is a complicated process, but could 
you could explain to us from sort of beginning to end how a 
refugee from Syria might navigate the process to be admitted to 
the United States? How long that typically takes? Where is the 
first contact? How many agencies are involved and have 
jurisdiction over this determination? And kind of just explain 
sort of the process because I think people have sort of a 
mistaken impression that they just show up, and they are 
admitted and sort of a better understanding of kind of what 
that process is.
    Ms. Richard. Thank you, Congressman. The process lasts 18 
to 24 months. The refugees are identified as people who are 
particularly vulnerable in the places where they have fled. So 
I guess the process starts when they decide to leave their 
country, which is a very challenging thing. They cross the 
borders. They try to live as well as they can for a time. But 
they may come to the attention of the UNHCR or other aid 
workers who will then look at their case and see if there are 
certain characteristics about them that would make them match 
what we are looking for.
    What we are looking for is that they have to fit the 
definition of a refugee, which is someone fleeing persecution 
for one of--they have a well-founded fear of persecution for 
one of five reasons, which is race, religion, nationality, 
political belief, or membership in a social group. And we also, 
though, seek to bring those who are the most vulnerable people. 
So that might be someone who has been tortured or has a 
specific medical condition that makes it very hard to survive 
where they are or just people for whom there is never going to 
be a chance to go home again.
    The first contact, then, is really with the U.N. High 
Commissioner for Refugees. They refer them to us. They do not 
choose who gets admission to the United States. But they refer 
the cases they think are likely to fit what we are looking for. 
And then the process continues where we have a relationship 
with several resettlement support centers, RSCs, in different 
places around the world where they will work with the refugee, 
the individual, or the family, and put the case together of how 
they became a refugee and make the case that they do actually 
qualify for refugee status.
    As part of that, they have a series of background checks, 
and then this picks up where Leon Rodriguez was describing the 
types of checks, the fingerprints, the medical background, the 
biographic history, until they get interviewed by that DHS 
officer who has traveled out to the field, usually in a circuit 
ride, and is interviewing people during the course of a day--
for Syrians, it is three per day--and really double checking 
several things. And they are trying to screen out people who 
are lying to us, people with a criminal past, or people who 
are, of course, would-be terrorists. So once that all has 
happened and the final checks work out, they are scheduled then 
to be brought to the United States. They are brought to the 
U.S. escorted by the International Organization for Migration. 
So that is two U.N. agencies involved, UNHCR and the 
International Organization for Migration.
    Mr. Cicilline. And if I can just interrupt you, before--so 
after they get to the United States, I understand the process, 
but that process you just described, is that any different than 
the process that was in place when the United States accepted 
200,000 refugees from the Balkans or 700,000 refugees from Cuba 
or 700,000 refugees from Vietnam? Has it improved, is it the 
same----
    Ms. Richard. After 9/11, the security aspects of that 
program were tightened quite a bit. And then again in the last 
couple of years. Therehas been a lot of effort to scrub the 
program to make it as efficient as possible without cutting 
corners on security. And right now, we are under direction from 
the White House to keep doing that and keep seeing if we can 
speed up the length of the process without doing anything to 
undermine security.
    Mr. Cicilline. And this has been described by some as the 
most intensive vetting process in the Federal Government 
interagency----
    Ms. Richard. Well, for any traveler to the United States. I 
mean, no traveler to the United States gets this kind of 
intense vetting.
    Mr. Cicilline. And, you know, are there any limitations, 
assuming you had additional resources, Director Rodriguez, or 
Under Secretary Richard, any limitations on your ability to do 
this for more refugees--if you were provided the additional 
resources to do it, to go through this process--are there any 
other obstacles?
    Mr. Rodriguez. I mean, I think this is always a resource 
question. And so right now we have about 100 refugee officers. 
We have an asylum corps of 400 plus that we can draw from to 
supplement. They are trained very similarly or just about 
identically to the refugee officers. But these situations 
always require us to adapt, to build to whatever the task is 
that is in front of us. And we have actually--my agency has 
become very good. And I know PRM has become very good at 
adapting when these challenges are presented to us. But does it 
put further stress on our resources? No question.
    Ms. Richard. You know, just in talking about it, we knew 
that we can't--we can't change the numbers like a dial on a--I 
don't know. Do people make things with dials anymore? Dial on 
an old-fashioned stereo. Because, you know, even if we were to 
get more funding to get more interviewers, they have to be 
recruited, and they have to be trained before they are sent 
out. And then the conditions overseas kick in which in some 
places where we had wanted to carry out interviews in the past 
are--they are security concerns. And so we, you know, have to 
make sure we are not sending the officers somewhere where they 
themselves would get into trouble. But then also sometimes 
there is acts of God. We had to slow down bringing people from 
Nepal year after the earthquake happened this past year. So 
they have to be able to travel out to the places where the 
refugees are ready to be interviewed. And in the Middle East, 
there have been some security issues. Same with the Dadaab camp 
in Kenya. And also there are parts of Africa that are just hard 
to get to. You can't just fly in and fly out without careful 
planning.
    Mr. Cicilline. Thank you. I see my time is up. Thank you.
    I yield back, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Cicilline.
    Mr. Boyle.
    Oh, Ms. Frankel.
    Ms. Frankel. Thank you very much.
    And thank you to the witnesses. And I agree with my 
colleagues here who have said that they consider this one of 
the great humanitarian--probably the greatest humanitarian 
crisis of our time right now.
    So I just want to get a couple things clarified. I got a 
little confused. On the refugees, it sounds to me--you say 
there are millions displaced within Syria and 4 million 
displaced out of Syria. So what would you--how would you 
quantify the number of refugees that would like to come to the 
United States? What figure would that be?
    Ms. Richard. Well, they don't get to come if they would 
like to come to the United States. I think it is probably a 
very large number, but not 100 percent because most refugees 
usually want to go home.
    Ms. Frankel. No. No. I am not saying that. I just want to 
know what you think is the----
    Ms. Richard. What the UNHCR does is they believe that of 15 
million refugees that they are concerned about, that about 1 
million are people who are suitable for resettlement in other 
countries.
    Ms. Frankel. So how does this come about? Does someone 
leave Syria in order to be considered by us? They have to--and 
is there any type of prioritization? I mean, if you are a 
family member, or is it first in line or first to sign up or--
--
    Ms. Richard. It is who is--first, you have to qualify to be 
a refugee, and then----
    Ms. Frankel. And what is the--what do you----
    Ms. Richard. Based on the legal definition, which was those 
five factors, well-founded fear of persecution. And then we 
seek to re-settle the people who are the most vulnerable, who--
--
    Ms. Frankel. Which would be who?
    Ms. Richard. So it is widows with children or orphaned 
children; or people who have medical conditions that make it 
very difficult for them to get the treatment they need in a 
refugee camp; people who are burn victims and can, you know, 
benefit from maybe, you know, the type of medical services we 
can provide here; you know, torture victims, people who, you 
know, feel that they will never be able to go home again. They 
have seen terrible things happen.
    Ms. Frankel. So if you are able to process someone, do most 
of these folks have somebody in the United States that they are 
coming to settle with, or are they just coming here on their 
own and----
    Ms. Richard. If they have a family, if they have a relative 
in the United States, we seek to reunite the families.
    Ms. Frankel. And if they don't, there are services that you 
can----
    Ms. Richard. What happens is when they arrive in the U.S., 
they are met at the airport by a representative, one of nine 
national networks we have. Six are faith-based; three are not, 
but they work in 170 cities across the United States. And they 
use a lot of volunteers. They will take the refugee from the 
airport to their new home. It is probably an apartment that has 
been set up for them. And it may have been furnished with 
donated furniture. And then they will make sure that there is a 
meal in the refrigerator and show them how to turn off and on 
the lights. Depending on where they are from, sometimes some of 
the modern conveniences are new. And then the next day they 
take them to help get their new life started. And that could be 
using the bus, going to the grocery store, getting a Social 
Security Number, getting the kids enrolled in school.
    Ms. Frankel. And as to the USAID, your workers are not in 
Syria. I think that is what you said. How many aid workers are 
dedicated now to Syrian relief, and where are they?
    Mr. Staal. Yeah. That is correct. Our aid workers are not 
inside Syria. We have a team in Jordan and another team in 
southern Turkey that is a Disaster Assistance Response Team. 
And then they work with our implementing partners, NGOs, U.N., 
and who in turn have local partners who work inside. So there 
are no Americans or international staff inside Syria.
    Ms. Frankel. And the workers inside, is it basically food 
and medicine?
    Mr. Staal. It is actually quite a bit more. I mean, food 
and medicine are a big part of it. But it is also helping to 
repair water systems, even schools. We have trained teachers 
and helped rebuild things. Sometimes it is an underground 
school, you know, that is safe. Working--building capacity of 
local councils. We work with--we have trained hundreds and 
hundreds of first responders who are, you know, like a, you 
know, the fire department in a number of cities inside Syria. 
They have been a huge thing. And they are independent. They are 
volunteers, but we provide them training and even equipment. We 
have given, you know, like fire trucks and things like that. So 
we do a variety of things inside Syria.
    Ms. Frankel. Madam Chairman, may I ask another question or 
just wait for another round, or----
    Ms. Ros-Lehtinen. Oh, please, go ahead. Thank you, Ms. 
Frankel.
    Ms. Frankel. Okay. Excellent.
    If I can just--if you all have an opinion, I would like to 
hear what your opinion is of what would happen if we would--if 
we were not doing this aid? And what does that mean to our--not 
just to our humanitarian part of this, which I think we all 
understand, but I think a lot of people don't--what they don't 
understand is that a lot of this effort really goes toward our 
national security. Because what happens? I mean, we are back to 
losing a generation of children, it looks like. And 
hopelessness breeds a lot of bad things. But I would like to 
hear it from your own words as to why your missions are so 
important.
    Ms. Richard. Well, Congresswoman, I am convinced that, as I 
mentioned in my testimony, we are saving millions of lives with 
this aid because some of it is from USAID; is backing up our 
World Food Programme; is feeding so many people; vaccinations 
that go to children, that if they are not vaccinated, you know, 
makes them susceptible to really dangerous diseases. So there 
is a lifesaving piece of this. But then there is the life-
enriching part of it, too. And that is what, I think, you were 
getting at with our concerns about losing a generation of 
Syrian children. Many are out of school, have been out of 
school for years. It takes--that there are places in school, it 
is pretty tough for them. You know, if they go to Turkey, that 
they are living, surrounded by a different language, Turkish. 
But even in Lebanon and Jordan, they sometimes go to a second 
shift of school where they are trying to catch up to where they 
would have been had they stayed in school throughout.
    Too many girls are getting married young. Boys and girls 
are sent to work early. So they are really missing out on 
childhood, missing out on education. And for those who are just 
left idle, they are really susceptible, I think, to bad 
influences. We see what happened when the rest of the world did 
not provide the funding to these U.N. appeals. I think, thanks 
to Congress, we have done our share of funding, the U.N. 
appeals for the Syrian crisis and for many other crisis around 
the world.
    But we weren't matched at the same levels by the rest of 
the world. Part of it was because the number of crises have 
grown and the needs have grown. But you see what happened is 
when the World Food Programme started to cut back on food 
assistance and vouchers, that may have played a role on 
triggering the numbers of people streaming out of the Middle 
East and walking and taking dangerous journeys to Europe. So it 
is very destabilizing. It is destabilizing for the neighboring 
countries. It is destabilizing now for various parts of Europe. 
And I think that that shows you that had we not been there, 
things would have been much worse.
    Mr. Rodriguez. Congresswoman, this is who we are as 
Americans, put simply. My parents were refugees from Cuba, who 
were offered refuge, as was the chair. I would not be surprised 
if there are other stories about there being refugees or 
children of refugees, certainly, in this Chamber today. And 
that has been our tradition as a country as far back as anybody 
can remember.
    When we talk about the importance of this work, it is 
certainly a humanitarian task that we are engaged in. And I 
think you have certainly painted very clearly sort of the scope 
of this problem. But it also promotes the stability of that 
region for us to take responsibility for our refugees and for 
us to lead by example as far as other countries. It has been 
our history that we have always taken a disproportionate share 
of refugees that has inspired other resettlement countries to 
do the same. And I would hope, and I think it is certainly the 
President's intention that we continue to honor that tradition.
    Mr. Staal. If I might add as well, and my colleagues have 
stated very eloquently, but I think it is important even to 
realize, notwithstanding the scale and scope of this crisis, 
there has not been large famine or major disease outbreaks, 
things like that, which would have been very likely without our 
assistance. So it has been amazingly successful, actually, 
given the constraints that they actually have to work with, 
both inside Syria and in the neighboring countries, and that is 
something to remember. Thank you.
    Ms. Frankel. Thank you very much.
    I yield back, Madam Chair.
    Ms. Ros-Lehtinen. Thank you very much, Ms. Frankel.
    Ms. Meng is recognized.
    Ms. Meng. Thank you, Madam Chairwoman and Ranking Member 
Deutch, and to all of our witnesses for being here today.
    As the weather gets colder, as winter approaches, how are 
our partners, implementing partners on the ground, helping to 
prepare winter for the refugees and displaced persons?
    Mr. Staal. I could begin the response. Especially within 
Syria, that has been the major focus of our efforts in addition 
to basic food and health supplies. We have been focusing over 
the last month or so on providing things like blankets and 
coats and, you know, additional supplies for the winter 
wherever we can get it in, and that is why it is important for 
us to work throughout the country wherever we can either in 
regime-held areas or in opposition-held areas, as long as we 
can be sure that it gets to the right people, which we have 
been able to do. But, yeah, that is a major issue for us inside 
Syria, and I know for the refugees as well.
    Ms. Meng. And how are we supporting our European allies? 
And what more can we do as they absorb the large influx of 
refugees, and how can we urge countries that have made pledges 
of humanitarian aid to fulfill those commitments?
    Ms. Richard. Well, we are responding to the appeals put out 
by UNHCR and the International Organization for Migration and 
for their activities in Europe. They are really focused on the 
periphery of Europe, so to speak, so Serbia, Macedonia, and 
Greece. And part of what they are doing is trying to make sure 
that as people approach borders and cross borders, that they 
are treated humanely and not as criminals, but as people who 
deserve a hearing to determine whether they deserve asylum or 
not and people who need help along the way.
    So that is a piece of what we are doing, but it is nowhere 
near the size and scope of what we are doing closer to Syria in 
the region.
    The other thing we are doing is we are participating in 
international conversations with the European leaders. We did 
that in New York, at the U.N. General Assembly. I just came 
from Istanbul from the Global Forum for Migration Development. 
You know, I met with everyone from the German Foreign Minister 
to the Swedish Migration Minister to the Lebanese Prime 
Minister. We are talking to them, asking them: What do you 
need? What can we do to help you?
    One of the proposals is that we try to do a better job 
internationally pulling people together to do more, not just in 
terms of money, which is part of it, but certainly, in terms of 
a settlement, work visas, family reunification, humanitarian 
visas, trying to get permission for refugees to work in the 
places to which they fled, trying to get kids in school, trying 
to get development assistance also tapped to help governments 
like Lebanon and Jordan, whose societies are really strained by 
having done the right thing. So that gives you a little flavor 
for the kind of international diplomatic exchanges we are 
having right now.
    Ms. Meng. I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Ms. Meng.
    Mr. Deutch.
    Mr. Deutch. Thank you, Madam Chairman. I appreciate it.
    Thanks, Assistant Secretary Richard and Deputy Assistant 
Administrator Staal, for being with us again today. We 
appreciate your willingness to keep the dialogue with the 
subcommittee. I have been clear where I stand on the need for 
increased humanitarian aid, the support by our allies around 
the world, attention, the need for action in Syria, and the 
need for real and serious discussion on the practicality of the 
safe zone. And I hope that we will have that conversation.
    But today, I want to take advantage of doctor--of Director 
Rodriguez' presence to the explore refugee process. I 
appreciate what you have shared already.
    I will tell you, I have written to the chairman of 
Judiciary Committee asking for a hearing on this topic as well. 
Thus, we will have an opportunity to delve into these issue 
further there also.
    So I just would like to walk through a few questions. You 
talked about USCIS' role in the U.S. refugee admissions 
program. You talked about the interviews to determine who is 
eligible for refugee status. You said that refugees--applicants 
for refugee status are interviewed in person. Who is 
responsible for conducting those interviews?
    Mr. Rodriguez. Those--sorry. Those interviews are conducted 
by refugee officers, who are part of our refugee admissions 
program.
    Mr. Deutch. And I know you talked about the way cases are 
solved in Europe, but can you talk about the role of these 
refugee officers in adjudicating the application for refugee 
status?
    Mr. Rodriguez. So I think the way to describe that role is, 
first, to talk about both their--the training and briefing 
process that they take into the--so they all participate in a 
5-week training course followed--as officers, followed by a 
specialized training course as refugee officers.
    Once we know that they are going to be deployed to a 
particular environment, let's use the case of screening Syrian 
refugees, they receive a specific 8-day briefing prior to their 
deployment. The purpose of that briefing is to steep them in 
the country conditions that are applicable to the country from 
which these individuals are coming. And those country 
conditions consist of all the things that you would think: In 
what part of the country is the government dominant? What part 
of the country is ISIS dominant? What are the specifics of what 
is going on in the particular province, and much more that 
would be really be difficult to talk about in a public hearing. 
But I think you get the sense of the kind of content with which 
they are briefed.
    Mr. Deutch. How many of them are there? How many of them 
have been trained to deal with Syrian refugees?
    Mr. Rodriguez. In total, there are 100. I don't know 
specifically how many are trained. What I will tell you is 
that, for example, in Istanbul, at any time, we will have 
deployed a team of either 5 or 10, depending on how many cases 
are actually ready for their interview.
    Mr. Deutch. And are there specific security checks that 
have been instituted specifically for Syrian applicants?
    Mr. Rodriguez. The Syrian vetting is the most intense 
vetting that we conduct. I talk about the interagency checks--
--
    Mr. Deutch. Which agencies are----
    Mr. Rodriguez. A number of intelligence agencies, a number 
of law enforcement agencies are populating the database that we 
use for the information check, including specific databases 
that identify individuals who may be terrorists.
    Mr. Deutch. And while their application is pending, where 
do they reside?
    Mr. Rodriguez. They may reside in specific--depending on 
where they are. A lot of that depends on where they are. They 
could be in refugee camps, a large number of them are.
    Mr. Deutch. They are broad?
    Mr. Rodriguez. They are broad. They certainly are not in 
their country, and they certainly are not here in the United 
States.
    Mr. Deutch. And the U.S. refugee admission ceiling over the 
last 3 fiscal years has been 70,000. Would USCIS have the 
capability to conduct these extensive security evaluations and 
interviews if the cap were raised to 85,000?
    Mr. Rodriguez. Absolutely, Congressman. We do our job no 
matter what.
    Mr. Deutch. And if it were raised to 100,000?
    Mr. Rodriguez. As I said, Congressman, we will do our job. 
We understand how critically important it is that we absolutely 
do our job and leave no stone unturned when it comes to 
conducting these security checks. We will not cut corners.
    Mr. Deutch. And you said that hundreds have been placed on 
hold or denied altogether. Do you know what those specific 
numbers are?
    Mr. Rodriguez. I apologize. I don't remember them right 
now. I usually have them at my fingertips, but I certainly can 
provide them to members in response to your----
    Mr. Deutch. If you would. And, finally, I want to thank you 
for the work that is being done. I want to thank you for your 
testimony here today to help provide some much-needed context 
and to push back against some of the statements that have been 
made wholly without any factual basis about the review that is 
done, the extent of the review, and I think without a full or, 
in many cases, without any appreciation for the efforts that 
they are undertaken every day to go through this refugee 
process and to contribute to our Nation's safety. You said in 
your opening testimony that it is important to you to honor our 
tradition of offering refuge to those who desperately need it. 
I agree, and I thank you sincerely for the work that you do.
    Mr. Rodriguez. Thank you, Congressman.
    Ms. Ros-Lehtinen. Amen.
    And how touching to dedicate this program, in your mind, to 
the legacy of your grandfather, very touching.
    Mr. Rodriguez. Thank you, Chairwoman.
    Ms. Ros-Lehtinen. Mr. Connolly of Virginia is recognized.
    Mr. Connolly. Thank you, Madam Chairman.
    And, welcome, to the panel.
    Ms. Richard, with the 12.2 million Syrians within Syria who 
are in need of humanitarian assistance, we have got in a 
country with 4.5 million people in Lebanon, 1.1 million Syrian 
refugees. In Jordan, 10 percent of the country's population are 
Syrian refugees equivalent. To what extent are we concerned 
about the destabilizing effect of long-term refugee presence in 
small, you know, delicate countries in the Middle East region?
    Ms. Richard. Thank you for your question. We are very 
concerned about it.
    It is one reason that we are very often in discussion with 
these government officials in those countries.
    We have a very strong aid program in Jordan that is 
stretching now to do more to help the communities that have 
taken in all these refugees.
    I have been very influenced by the High Commissioner for 
Refugees, who is visiting Washington just now, Antonio 
Guterres, who really believes that this requires more than just 
relief to the refugees but also requires help to the 
communities whose hospital beds are filled, whose schools have 
gone to second shifts to accommodate Syrian children, whose 
water systems are straining, water and sanitation systems. You 
know, on a municipal level, there is a lot more people there in 
both Jordan and Lebanon.
    I mentioned that I recently came back from Jordan. That was 
my eighth visit in the 3\1/2\ years I have been Assistant 
Secretary, so we have very close working relationship with 
them.
    In Lebanon, I had met with the Prime Minister when he was 
in New York in September. He met me several times before, so we 
have a good conversation there.
    We are particularly interested in doing two things: One is 
making sure that these developmental resources come into these 
countries, whether it is from USAID or the World Bank and 
multilateral mechanisms. And then the other is to make sure 
that children get into school because we think that is one of 
the most worrisome things right now, is that there is a whole 
generation of Syrian children who are out of school and, you 
know, in danger of being unskilled and at loose ends.
    Mr. Connolly. Do we have an estimate of the total 
population of Syrian refugees that will need to be permanently 
resettled, that are not going to be going back to Syria?
    Ms. Richard. I don't think we have an estimate of that. It 
is very much done on a case-by-case basis, and we work with 
UNHCR to identify the most vulnerable cases. Starting in 
September 2013, they started to look at targeting a certain 
number of Syrians. It is now up to 130,000 Syrians as a goal, 
and they have referred 20,000 of that number to us. And in 
recent months, it has climbed between 22,000. The will U.S. 
probably end up taking most of the Syrian refugees who are 
referred for resettlement, but we are also trying to convince 
other countries to also do their share.
    Mr. Connolly. Right. And I want to get to that. But the 
number we have decided, the President announced, is 10,000. Is 
that not correct?
    Ms. Richard. That is correct for this fiscal year.
    Mr. Connolly. Right. How do we arrive at that number? Based 
on what?
    Ms. Richard. Well, we had been planning to bring between 
5,000 and 8,000. And the President pushed us to stretch and 
really gear up to take more, and that, you know, makes sense as 
we are adding 15,000 refugees to our overall ceiling. And then 
the number for the following year we haven't determined yet, 
and in part, that is because we want to see how well we do this 
year or in the first half of the year in getting more Syrians 
to the United States.
    Mr. Connolly. And what progress are we making impressing 
Gulf partners both to accept refugees and to help finance the 
humanitarian services that are so desperately needed in Jordan, 
Lebanon, and Turkey, and elsewhere?
    Ms. Richard. I would say our scorecard on that is very 
uneven. It is very uneven. We have seen how Kuwait has held 
three major pledging conferences for the Syrian crisis, and 
they, themselves, provided hundreds of millions of dollars 
several years running and followed through on their pledges, 
but not all of the Gulf states do that. Some give very little, 
some give a little bit, and then they will pledge some and then 
don't follow through. The UAE, in addition to Kuwait, has done 
several hundred millions of dollars. In general, none of these 
states resettle refugees. They are permitting Syrians to come 
and work in their countries. So that is one way that they are 
sheltering Syrians and their families, but that is normally a 
temporary situation.
    Mr. Connolly. And a drop in the bucket in terms of numbers?
    Ms. Richard. We need more. We need more.
    Mr. Connolly. Madam Chairman, my time is up, but thank you.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Connolly.
    Mr. Rohrabacher of California.
    Mr. Rohrabacher. So when we were talking about this great 
challenge that we face, you are saying that these oil-rich Gulf 
states are bringing people in as guest workers? How many? Do we 
know what magnitude that is, we are talking about?
    Ms. Richard. I don't have those facts.
    Mr. Rohrabacher. Are we talking about 5,000 people, talking 
about 20,000, talking about 50?
    Ms. Richard. We will get you that information because what 
happened was in the last month in September with Europe 
migration, there has been a lot more criticism of the Gulf 
states, and then some of them pushed back and provided more 
information than we had previously had.
    Mr. Rohrabacher. How many migrants do we know have gone 
into Europe in these last 18 months?
    Ms. Richard. It is hundreds of thousands, upwards of 
600,000 that we are expecting.
    Mr. Rohrabacher. Upwards of 600,000, and we don't know if 
the Gulf states have even brought in 10,000 people?
    Ms. Richard. Well, I probably should know, but I don't know 
today. Sorry.
    Mr. Rohrabacher. All right. I appreciate that.
    And what we are talking about here is bringing in 70,000, 
is it, or 75,000 here in the United States?
    Ms. Richard. For the past 3 years, we have brought 70,000 
refugees from all around the world to the United States. Last 
year, we brought 1,700 Syrians as part of that 70,000.
    Mr. Rohrabacher. 1,700 out of 70,000.
    Ms. Richard. That is right. And then for this year, we 
intend to bring 85,000 refugees to the United States and 10,000 
Syrians.
    Mr. Rohrabacher. And 10,000. Where are the rest of those 
refugees from, by the way, the other countries?
    Ms. Richard. The top countries they are coming from are 
Iraq, Burma, and Somalia. But they come from 67 different 
countries.
    Mr. Rohrabacher. How many are coming from Iraq?
    Ms. Richard. I have that, and I can tell you that.
    So 12,676 came from Iraq for fiscal year that just ended, 
September 30.
    Mr. Rohrabacher. 12,000. Now, of these people--now, one 
thing that we have noticed that the migrants coming into 
Europe, we have just seemed to notice that they seem to be very 
strong young men, who are virile and Muslims, leaving this 
Muslim part of the world to go into this other part of the 
world that is not a Muslim part of the world. And they are 
getting away from conflict, and they are going there.
    Is there any--let me ask you this, of the people that we 
are bringing in, are they going to be Muslim men like are going 
to Europe, or is there some way that we are trying to see that 
we have maybe a better definition of refugee, helpless people 
who are in need rather than bringing more Muslim men into the 
United States and into Western Europe?
    Ms. Richard. Well, of the 1,700 that we have brought, only 
2 percent were young men, you know, young adult, single men. Of 
course, we bring men. We bring families. We bring families that 
have had terrible things happen to them. I would question, I 
guess, some of the thinking behind your statement about the 
young, able-bodied Muslim men walking to Europe. I think the 
reason that they are able to walk to Europe is because they are 
able-bodied. And I think the reason they are going is because 
they have lost hope in the places they are living now of being 
able to finish their educations or have an education or have a 
job or earn some money and support their families.
    Mr. Rohrabacher. I will tell you, when we see these 
pictures of thousands and thousands of young Muslim men in the 
streets in Western Europe, one thing has to be a priority: We 
want to help refugees whose lives are in danger. That is is our 
moral standard. This is what makes us America; we care about 
people who are in danger like that. But you are talking about--
the people I have seen are military-aged people, who--if we are 
ever going to--if they are against radical Islam, they should 
be there fighting radical Islam. And I hope that--let me ask 
you in terms of religion.
    Ms. Richard. I think some of them are----
    Mr. Rohrabacher [continuing]. Of the people would are here, 
of the people who are coming, we know that the Christian 
community in Syria and in Iraq and in that part of the world 
has been targeted for what most of us would consider to be 
genocide. They take the Christians out, and they just massacre 
them. Now, there are other Muslims, or get the Sunnis and 
Shiites to kill each other, that is clear. But it is pretty 
hard to miss the fact that the Christian community in that part 
of the world has been targeted for extinction. Should we not, 
then, try to prioritize so that we take care of those people 
who are targeted for extinction rather than just people who are 
caught up in a horrible situation?
    Ms. Richard. All right, three very quick points. One is 
that the Muslim men are going to Europe. Some of them are 
trying to avoid being drafted into Assad's regime, into his 
army. And so I am very sympathetic to them for that.
    Second, Europe is, in history, primarily Christian, but 
today, there are a lot of Muslims already living throughout 
Europe. I assure you, Congressman.
    And then, third, we do agree with you that the Christian 
community is being targeted and particularly by ISIL. And as 
the High Commissioner reminded me today, the ones who are most 
targeted, the most vulnerable, are the Yazidi, who are non-
Christians and are considered therefore not of the Book and 
are, therefore, even more miserably treated and murdered and 
raped.
    So we agree with you that this qualifies, then, refugees 
who have fled because they are Christians or other ethnic or 
religious minorities as particularly vulnerable, and it does 
help them put their case together that they should be 
particularly helped and also that sort of have settlement in 
the United States.
    Mr. Rohrabacher. I would hope that we give priority to 
Christians and other people who have been actually targeted for 
their faith.
    And also let me note about whatever we have to say about 
Assad trying to murder those people who would create a more 
democratic Syria, he did offer a safe haven to Christians for a 
long time, and that is at least one thing that we need to 
recognize. If Christian communities in the Middle East is, 
indeed, being targeted for genocide, we need to understand 
that. We need to target that. We need to act with that part of 
the assumption of how we are going to handle this great 
humanitarian crisis that we now face in the Middle East.
    Thank you for doing your part. God bless you. We will work 
with you.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Rohrabacher.
    Mr. Rodriguez, I wanted you to have another opportunity to 
walk us through the vetting process. This hearing is being 
broadcast through C-SPAN 3, and then they will view it. They 
will run it a few more times. So maybe some in the television 
audience have not had a chance, because they have just plugged 
in now, to hear you talk about how the vetting process that you 
have in place is, how secure you feel that is, how comfortable 
you feel that there is the existing security screening process 
that we have is able to identify potential extremists and 
threats to the United States. So if you could walk us through 
that process about what your department is doing.
    Mr. Rodriguez. Thank you, Chairwoman, for that opportunity. 
And Under Secretary Richard actually did a very nice job of 
walking through the broader process, which, of course, starts 
with the first encounter with the United Nations High 
Commissioner on Refugees. Then they go to a resettlement 
contractor that works with the Department of State. That begins 
the first part, two of the first critical parts of the vetting 
process, which is UNHCR itself conducts an interview of the 
individual in order to determine whether they are stating a 
refugee claim. That is information that we receive, and then 
later on becomes part of our interview process.
    The biographic checks, basically based on the pedigree 
information, if you will, that is given to us by the 
applicant's refugee status are tested against three important 
databases. First is the consular lookout database, which is 
maintained by the State Department, and it essentially 
describes people who have been encountered during the consular 
process. In some cases, we look to the FBI to give us something 
called the security advisory opinion, which, again, looks to a 
series of sources that are both law enforcement and 
intelligence sources. But most critically for this particular 
population is the third of the databases that I mentioned, 
which is the interagency check. That interagency check queries 
against the number of law enforcement and intelligence sources 
in the community that is working in partnership, the National 
Security Council, the National Counterterrorism Center, the 
State Department, and us. We are in a constant process of 
thinking about how we further strengthen those sources, not 
just to vet Syrians but to vet anybody else, be it Iraqis, be 
it Afghans, and Somalis, as the case might be.
    So as I indicated before, that process, just in the Syrian 
case, has identified 30 individuals who just as part of that 
process who are identified as having derogatory history were 
denied admission at that point.
    We then get to the point where our officers conduct the 
interviews. By the time they are doing that, they have the 
benefit of the interview that has already been conducted by the 
High Commissioner. They have the results of these checks, but 
very critically, they have not only their own deep 
understanding of the country conditions about which they have 
been briefed prior to deployment, but they also have their 
experience interviewing individuals. And so, through that, they 
also gain a lot of depth of understanding of what makes sense, 
of what adds up, what is credible.
    And so through that process, they are making decisions 
about whether people will in fact move to the next stage or 
whether in fact there is a problem with the account they are 
given. Sometimes that problem could be a contradiction between 
what they are saying during the screening interview and what 
they told the High Commission. Sometimes it can be that the 
information that they are given is completely inconsistent with 
the country conditions as we know them. And, by the way, the 
information that we gather, we actually often nominate that 
information to be part of intelligence databases because we get 
information that is then used to deepen our understanding of 
what is going on, whether it is in Syria or somewhere else. 
And, of course, that then fortifies the work we are doing in 
the future.
    Is the process risk-free? There is no risk-free process. 
Are we doing the absolute best that we can practically with the 
resources? Are we giving our folks the best training we can 
give them? Are we using the best intelligence resources that we 
can get our hands on? And the answer to that is absolutely yes.
    Ms. Ros-Lehtinen. Thank you very much.
    Ms. Richard and Mr. Staal, I wanted to give you an 
opportunity in case you had any concluding statement that you 
would like to make.
    Ms. Richard. You know, you will notice that we all said 
that we are able to do this with the bipartisan support of 
Congress. And we actually say that to people in other 
countries, too, and explain to them that no matter what they 
hear about Washington, this program actually has benefited year 
in and year out from bicameral, bipartisan support. And it is 
my desire to keep it that way. And I appreciate both of you 
sticking this out to the end here and your help to help us to 
keep it that way because I think there is a risk that as we 
bring more people and as there is more press attention to the 
program and attention during a Presidential campaign season, 
that people can start misinterpreting the goals of this.
    This is an American program. It is a fine American 
tradition. I think most Americans should take pride in both our 
overseas humanitarian endeavors and our domestic ones. So I 
thank you in advance for the help you are giving us with your 
colleagues to continue the strong support we get. Thank you 
very much.
    Ms. Ros-Lehtinen. Thank you to all of you for the great 
work you are doing.
    Mr. Staal.
    Mr. Staal. Yes. Thank you very much for holding this 
hearing and also for identifying that it is not only the 
Syrians themselves who are suffering but the countries in the 
region and the importance of maintaining their stability, but 
also their ability to absorb these additional refugees and 
people, and that is a critical part of the resources that you 
provide us, not only on the humanitarian side, but even the 
development dollars are providing assistance to this crisis.
    And, of course, at the end of the day, though, no matter 
how much we do on the humanitarian side, that is not going to 
resolve the problem. That is not even going to stop people from 
going to Europe. It is resolving the political issues and 
getting a solution there, and that is what we all hope for. 
Thank you very much.
    Ms. Ros-Lehtinen. Amen.
    Thank you very much, and we look forward to having you back 
with us in a few months' time so you can update us on the 
progress you have made.
    Thank you very much.
    Mr. Staal. Looking forward to it.
    Ms. Ros-Lehtinen. And, with that, the subcommittee is 
adjourned. Thank you.
    [Whereupon, at 4:19 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
